IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2017
ROBERT BERNAL, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I hereby certify that on the below listed date, as required by Supreme Court
Rules 29.3 and 29.4, the enclosed Motion for Leave to Proceed in Forma Pauperis
and Petition for a Writ of Certiorari were served on each party to the above
proceeding, or that party’s counsel, and on every other person required to be served.
I served the Supreme Court of the United States at the following address via
Federal Express, priority overnight:
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543.
The following were served by depositing an envelope containing the above
documents in the United States mail properly addressed to, and with first-class
postage prepaid:
Solicitor General of the United States,
Room 5616
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
DATE: July 30, 2020

Laura Irwin
Assistant United States Attorney
Office of United States Attorney
700 Grant Street, Suite 4000
Pittsburgh, Pennsylvania 15219

BY: /s/ Lisa B. Freeland
Lisa B. Freeland
Federal Public Defender
Suite 1500
1001 Liberty Avenue
Pittsburgh, Pennsylvania 15222
(412) 644-6565
17

